         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       Improvements Needed in
       Key EPA Information System
       Security Practices
       Report No. 10-P-0146

       June 15, 2010
Abbreviations

AO          Authorizing Official
ASSERT      Automated System Security Evaluation and Remediation Tracking
CA          Certification Agent
C&A         Certification and Accreditation
CIO         Chief Information Officer
EPA         U.S. Environmental Protection Agency
FISMA       Federal Information Security Management Act
GAO         U.S. Government Accountability Office
IV&V        Independent Verification and Validation
NIST        National Institute of Standards and Technology
OEI         Office of Environmental Information
OIG         Office of Inspector General
OMB         Office of Management and Budget
OTOP        Office of Technology Operations and Planning
POA&M       Plan of Actions and Milestones
READ        Registry of EPA’s Applications and Databases
TISS        Technology and Information Security Staff
                       U.S. Environmental Protection Agency 	                                             10-P-0146
                                                                                                       June 15, 2010
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review            Improvements Needed in Key EPA
The Office of Inspector
                                  Information System Security Practices
General contracted with
Williams, Adley & Company,         What Williams, Adley & Company, LLP, Found
LLP, to perform an
independent review of the         Williams Adley found that EPA program offices lacked evidence that they
U.S. Environmental Protection     planned and executed tests of information system security controls as required by
Agency’s (EPA’s) information      federal requirements. In addition, Williams Adley found that contingency plans
security program to determine     developed and maintained by program offices were not current and accurate, and
whether it meets the              the certification and accreditation process and review of security plans needed
requirements of the Federal       improvements. EPA also had two authoritative system inventories that did not
Information Security              reconcile. Finally, EPA had contractor-owned and -operated systems in operation
Management Act.                   without proper oversight monitoring.

Background                         What Williams, Adley & Company, LLP, Recommends

The Federal Information           Williams Adley’s recommendations to the Director of the Office of Technology
Security Management Act           Operations and Planning include communicating and training EPA’s information
requires inspectors general, or   security community on testing and documenting information systems security
the independent evaluators        controls. Williams Adley also recommends the Director enhance the quality
they choose, to perform an        assurance process to verify that self-assessments evaluate all required security
annual evaluation of their        controls.
agencies’ information security
programs and practices.           Williams Adley recommends that the Principal Deputy Assistant Administrator of
                                  Environmental Information and Deputy Chief Information Officer direct offices to
                                  design and implement a process to perform a periodic reconciliation between its
                                  two authoritative system inventories.

For further information,          Agency officials did not provide comments to the draft audit report and indicated
contact our Office of             they will provide a response to the final report.
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100615-10-P-0146.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL



                                         June 15, 2010

MEMORANDUM

SUBJECT:	 Improvements Needed in Key EPA Information System Security Practices
          Report No. 10-P-0146


FROM:	         Rudolph M. Brevard
               Director, Information Resources Management Assessments
               Office of Mission Systems

TO: 	          Linda A. Travers
               Principal Deputy Assistant Administrator for Environmental Information
               and Deputy Chief Information Officer

               Vaughn Noga
               Director, Office of Technology Operations and Planning
               Office of Environmental Information


This is the report on the subject audit prepared by Williams, Adley and Company, LLP, on
behalf of the Office of Inspector General (OIG) of the U.S. Environmental Protection Agency
(EPA). Williams Adley prepared this report as part of its review of EPA’s information security
program for Fiscal Year 2009 as required by the Federal Information Security Management Act.
This report contains findings that describe the problems Williams Adley identified and corrective
actions Williams Adley recommends. This report represents the opinions of Williams Adley and
does not necessarily represent the final EPA position. Final determinations of matters in this
report will be made by EPA managers in accordance with established audit resolution
procedures.

The estimated cost of this report – which includes contract costs and OIG’s contract
management oversight – is $136,242.

Action Required
In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed-upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0893
or brevard.rudy@epa.gov, or Cheryl Reid at (919) 541-2256 or reid.cheryl@epa.gov.
                                         June 15, 2010

MEMORANDUM

SUBJECT:	 Improvements Needed in Key EPA Information System Security Practices
          Report No. 10-P-0146

FROM:	        Robert J. Fulkerson
              Director IT Assurance and Business Solutions
              Williams, Adley & Company, LLP

THRU: 	       Rudolph M. Brevard
              Director, Information Resources Management Assessments
              Office of Inspector General

TO:	          Linda A. Travers
              Principal Deputy Assistant Administrator for Environmental Information
              and Deputy Chief Information Officer


This is our final report on the review of the U.S. Environmental Protection Agency’s (EPA’s)
information security program as required by the Federal Information Security Management Act.
Williams, Adley & Company LLP conducted this audit on behalf of the EPA Office of Inspector
General (OIG). This report outlines weaknesses found and recommendations to correct the noted
weaknesses.

We would like to thank your staff for their cooperation throughout the audit process. Please
contact the EPA OIG for further information related to this report.
Improvements Needed in Key EPA Information System                                                                             10-P-0146
Security Practices


                                      Table of Contents 

   Purpose........................................................................................................................     1         


   Noteworthy Achievements .........................................................................................                   1         


   Findings .......................................................................................................................    1         


           Documenting Information Systems Security Controls Testing

                 Needs Improvement ....................................................................................               2              

           Contingency Planning Practices Need Improvement ...........................................                                3

           Review Process for Certification and Accreditation and 

                 Security Plans Needs Improvement ............................................................                        4

           Contractor Oversight Needs Improvement...........................................................                          5

           Practices Used to Identify All EPA Systems Need Improvement .........................                                      5


   Agency Comments and OIG Evaluation ..................................................................                               6 


   Recommendations .....................................................................................................               6         


   Status of Recommendations and Potential Monetary Benefits..............................                                            7          




Appendices 

   A       Scope and Methodology....................................................................................                   8         


   B       Description of ASSERT and READ Systems ...................................................                                 10     


   C       Distribution .........................................................................................................     11     

                                                                                         10-P-0146


Purpose
As part of the Fiscal Year 2009 Federal Information Security Management Act (FISMA) review,
the Office of Inspector General (OIG) tasked Williams, Adley and Company, LLP, to review and
assess the U.S. Environmental Protection Agency’s (EPA) information security program and
annual reporting to the Office of Management and Budget (OMB) on the effectiveness of the
information system security program.

Williams Adley conducted this review in accordance with generally accepted government
auditing standards. These standards require that Williams Adley plan and perform the audit to
obtain sufficient and appropriate evidence to provide a reasonable basis for their findings and
conclusions based on the audit objectives. Williams Adley believes the evidence obtained
provides a reasonable basis for our findings and conclusions.

Appendix A describes the detailed Scope and Methodology of this review.

Noteworthy Achievements

EPA’s management officials indicated that they have taken the following actions to improve the
Agency’s information security program:

•	 Executed contractual agreements to review all certification and accreditation (C&A)
   packages.
•	 Implemented “on-site” training of Agency personnel on preparing C&A system
   documentation and managing associated plans of actions and milestones (POA&Ms).
•	 Increased its independent verification and validation activities (IV&V) to review 10 percent
   of the Agency’s information systems.
•	 Procured an automated C&A tool that will require all C&A artifacts to be published, stored,
   and maintained within EPA’s Automated System Security Evaluation and Remediation
   Tracking (ASSERT) system.

Findings
Strengthening of managerial controls is needed to ensure delegated information security
activities are carried out as intended. EPA delegates implementation of its information security
practices to senior managers throughout the Agency. While many offices have practices in
place, our review disclosed that personnel with significant security responsibilities continue to
face challenges in demonstrating that they executed required tasks. In particular, offices lacked:

•	 Evidence that testing of information systems security controls took place as required by
   federal guidance,
•	 Contingency plan testing on an annual basis,
•	 Practices to ensure an Authorizing Official (AO) receives credible information to make risk-
   based decisions, and




                                                 1

                                                                                          10-P-0146


•	 Internal controls to ensure personnel are familiar with their duties and responsibilities for
   overseeing EPA-owned and contractor-operated systems.

OMB, National Institute of Standards and Technology (NIST), and EPA guidance outline
requirements for key information security activities. EPA also implemented a quality assurance
program to verify the effectiveness of information security practices. However, in general, EPA
offices did not put the emphasis on performing and documenting accomplishment of these
critical information security processes. Testing of security controls and continuity plans, and
informing AOs about potential threats provide the framework for EPA offices to apply risk
mitigation strategies. Without performing these tasks fully, management is not presented with
the information needed to make informed decisions about the amount of risks they are willing to
assume for continued operations of their network-attached resources and what steps they should
take to reduce their risks. Furthermore, without having personnel knowledgeable of their
contractor oversight responsibilities, EPA faces the potential that threats to its networked-
attached resources could exist without management having the opportunity to mitigate them.

Additionally, our review disclosed that the Office of Environmental Information (OEI) lacked an
oversight process to reconcile two databases used to inventory Agency systems and applications.
These two databases represent the inventory of known EPA databases and applications. Without
reconciling these inventories, management increases the potential that it may not have taken
appropriate risk mitigation actions because they were not aware the threat existed. Additionally,
prior audit reports highlighted areas of concern with EPA’s quality assurance program that
management should take steps to correct. Having a quality assurance program that focuses on
ensuring security-related activities are designed and executed as intended helps management
obtain greater assurance that critical security steps are taking place as management intended.

Documenting Information Systems Security Controls Testing Needs Improvement

EPA program offices were not maintaining documentation that demonstrates testing of security
controls was performed as prescribed in NIST Special Publication 800-37, Guide for Applying
the Risk Management Framework to Federal Information Systems, as follows:

•	 AO or designated representative determined the required level of independence for security
   control assessors based on the results of the security categorization process.
•	 Systems managed by third party service providers were tested independently.
•	 Certification Agent (CA) certified that the security controls documented in the System
   Security Planning Package were correct.
•	 CA notified the Information System Security Officer of the results and recommended
   changes. (The Information System Security Officer is responsible for updating and
   maintaining the system documentation.)

Our tests revealed information missing in the documentation:

•	 The office tested all minimally required security controls as prescribed by NIST within the
   last three years.



                                                 2

                                                                                          10-P-0146


•	 Tests of systems managed by third party service providers were performed by an independent
   party as required by NIST.
•	 System tests were conducted and signed off by multiple individuals. Security documentation
   for 10 of the 19 systems reviewed showed that the same individual who evaluated the
   system’s security controls also signed off on the test results.

EPA’s C&A procedures state that the AO is responsible for operating an information system at
an acceptable level of risk to agency, assets, or individuals. As such, the AO determines if the
level of independence is sufficient to provide confidence that the assessment results can be used
to make a risk-based decision on whether to place the information system into operation or
continued operation. Incomplete documentation increases the risks that the AO may authorize
the system for processing without adequate knowledge of security weaknesses associated with a
critical risk-based decision.

EPA implemented a quality assurance process to review IV&V and C&A reports that program
offices generate as a result of system testing. However, these efforts are only applied to new
IV&V tests and C&A reports. Therefore, there is limited validation to ensure all EPA systems
are tested on a regular basis and oversight activities rely heavily on self-reported information
program offices provide. Furthermore, the quality assurance process lacks an emphasis on
ensuring that EPA offices plan and execute security testing according to federal guidance
because test results and activities are reviewed after they have already occurred. Thereby, the
quality assurance process misses the opportunity to ensure that the limited resources dedicated to
information systems security are achieving the greatest impact for the Agency.

EPA OIG Report No. 10-P-0058, Self-reported Data Unreliable for Assessing EPA’s Computer
Security Program, February 2, 2010, highlights concerns with EPA’s quality assurance program
and made recommendations. Taking steps to correct previously reported weaknesses as well as
those highlighted in this report should help management gain greater confidence in the security
control testing information used for deciding whether to authorize a system for operation.

Contingency Planning Practices Need Improvement

EPA has not established the necessary controls to ensure compliance with NIST requirements
and EPA policies for annual testing of contingency plans. Current EPA procedures and
processes do not ensure that unsuccessful tests are addressed in a timely manner and all
stakeholders are adequately informed of testing results in a timely manner.

For the 19 systems selected for testing, the following observations were noted:

•	   Contingency plans were not current and have not been fully implemented.
•	   Documentation did not include testing results and lessons learned.
•	   Testing plans and procedures did not address the causes for failure.
•	   Testing plans and results were not signed by AOs.

The lack of a comprehensive contingency plan increases the risks that the Agency may not
recover its mission critical systems from a significant disruption to meet its business mission in a


                                                 3

                                                                                             10-P-0146


timely manner. According to NIST Special Publication 800-34, Contingency Planning Guide for
Information Technology Systems, testing should occur at least annually or when significant
changes are made to the system, business process, or contingency assumptions. Testing results
and lessons learned should be documented and reviewed by participants and other key personnel
as appropriate. In addition, the EPA procedural guidelines state that the plan, recovery
capabilities, and personnel are tested annually to identify weaknesses.

Review Process for Certification and Accreditation and Security Plans Needs
Improvement

EPA needs to improve its quality assurance procedures to ensure C&A documents and security
plans are current, properly approved by authorized personnel, and clearly define and delegate
authorities. For the 19 systems selected for testing, we identified the following observations of
C&A:

•	 Information System Security Officers did not ensure C&A security documents were current,
   documented, and authorized in compliance with regulatory requirements.
•	 Information System Security Officers did not update ASSERT to match current C&A
   security documents.
•	 EPA did not provide a signature on contractor C&A supporting documents.

For the 19 system selected for testing, we identified the following observations for the security
plans:

•	 Security roles and responsibilities are not properly defined.
•	 Delegation memorandums for assigning responsibility are not signed by an authorizing agent.
•	 Authorization for contractor assignment of responsibility and delegation of authority was not
   documented and approved.
•	 A delegation memorandum is not maintained in ASSERT.
•	 Security plans are not current.
•	 Points of contacts are not updated in a timely manner.

NIST Special Publication 800-37, Guide for the Security Certification and Accreditation of
Federal Information Systems, requires independent certification for systems with a risk category
rating of high or moderate. Each phase in the C&A process must consist of well-defined tasks
and subtasks that are to be carried out, as indicated, by responsible individuals. Agency officials
may appoint appropriately qualified individuals, to include contractors, to perform the activities
associated with any security C&A role with the exception of the Chief Information Officer and
AO. The only activity that cannot be delegated by the AO is the security accreditation decision
and the signing of the associated accreditation decision letter (i.e., the acceptability of risk to the
Agency). EPA 2150.0, Agency Network Security Policy, requires that general support systems
and major applications undergo C&A prior to connecting to EPA networks. Further, the
system’s C&A expires after three years, or sooner if a major change occurs, and all system
interconnections must receive written management authorization based on acceptable levels of
risk.



                                                   4

                                                                                        10-P-0146


Without documentation that supports and demonstrates security responsibilities and activities are
properly carried out, EPA increases the risk that system security controls will not be adequately
developed and implemented to effectively address the security risks. These risks include
preventing and detecting unauthorized modification of data, unauthorized access to mission
critical data, financial data, and personally identifying information.

Contractor Oversight Needs Improvement

EPA had not clearly defined contractor monitoring duties and responsibilities for contractor
oversight. Further, EPA had not provided the necessary training to Agency personnel to enable
them to perform oversight. For the sample of 19 systems tested, 3 systems were maintained by a
contractor. We noted that EPA personnel assigned responsibilities for overseeing contractors
were unfamiliar with their duties and documentation requirements. In one instance, the office
had not yet assigned monitoring to an EPA official.

Without an effective contractor oversight program, EPA increases the risks that unauthorized
activities may occur and go undetected, resulting in loss, destruction, theft, and misuse of
sensitive proprietary information. In addition, EPA increases the risk that contractor system
security controls implemented by the contractor may not be effective to properly secure and
safeguard Agency data.

Practices Used to Identify All EPA Systems Need Improvement

EPA had not performed a reconciliation between EPA’s ASSERT and Registry of EPA’s
Applications and Databases (READ) to identify all reportable systems (see Appendix B for
descriptions of ASSERT and READ systems). A review of the ASSERT and READ inventories
disclosed a difference of 54 systems. During our analysis, we noted EPA discontinued the
inventory reconciliation between the two systems. In addition, the READ Administrator is
aware that READ is not current and READ does not:

•   Reflect changes to system names.
•   Reflect changes to the system status for being reportable.
•   Identify reportable systems under development.
•   Illustrate the status of retired reportable systems.

Within OEI, the Office of Technology Operations and Planning (OTOP) oversees ASSERT and
the Office of Information Collection oversees READ. Annually, the Chief Information Officer
requests that senior agency officials enter into READ a comprehensive listing of their
information resources. Similar data calls are also made to Agency officials requesting updates to
their system information in ASSERT. While EPA makes efforts to maintain the accuracy of both
data sources, a lack of coordination between the offices that oversee ASSERT and READ
hinders the reconciliation between the two systems.

Without a complete and accurate inventory of all systems, EPA increases the risk that personnel
responsible for providing oversight of the Agency’s information security program have the
information necessary to ensure required security control activities are performed as required by


                                                 5

                                                                                       10-P-0146


federal requirements. Also, management may not be informed of the full scope of risks an EPA
application poses to the Agency’s network so management could make risk-based decisions for
mitigating potential threats.

Agency Comments and OIG Evaluation
The Agency declined to provide comments to the draft audit report and indicated responses will
be provided for the final audit report.

Recommendations
Williams Adley recommends the Director, Office of Technology Operations and Planning:

1.	 Issue a memorandum to the EPA information security community that reiterates the
    requirements for documenting information systems security control testing.
2.	 Implement training on the appropriate method for documenting tests of information systems
    security controls and incorporate this training into the Annual Information Security
    Conference.
3.	 Enhance the quality assurance process to verify that:
        a.	 required security controls are evaluated annually as part of the FISMA self-
            assessment,
        b.	 security control evaluations are independent and testing results include a documented
            strategy to resolve all weaknesses,
        c.	 documentation of security controls testing is complete and adequately supports the
            objectives,
        d.	 testing plans and procedures address the cause for testing failures, and
        e.	 NIST and EPA requirements for security planning, assigning security responsibilities,
            and maintaining C&A documents (agency’s and contractor’s) are being followed.
4.	 Develop and implement a procedure requiring Information System Security Officers submit
    proposed test plans to the Director of Technology and Information Security Staff (TISS), or
    request a waiver with justification for eliminating test(s).
5.	 Require the Director of TISS review and approve information systems security controls test
    plans prior to the Information System Security Officers conducting tests.
6.	 Develop an inventory of systems that require contingency plans and maintain the status of
    updates, test dates, testing results, and resolution required. Create POA&Ms in ASSERT, as
    needed.
7.	 Revise the Network Security Policy to enforce the requirements of NIST Special Publication
    800-37, regarding responsibilities, delegation of authority, and independence.
8.	 Design and implement a training program on requirements for monitoring contractor
    oversight based on EPA roles and responsibilities.

Williams Adley recommends the Principal Deputy Assistant Administrator of Environmental
Information and Deputy Chief Information Officer:

9.	 Direct the Director, OTOP and the Director, Office of Information Collection, to design and
    implement a process to perform a periodic reconciliation of ASSERT and READ.


                                                6

                                                                                                                                           10-P-0146



                               Status of Recommendations and
                                 Potential Monetary Benefits
                                                                                                                                    POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                  BENEFITS (in $000s)

                                                                                                                        Planned
Rec.   Page                                                                                                            Completion   Claimed    Agreed To
No.     No.                            Subject                            Status1          Action Official                Date      Amount      Amount

 1       6	    Issue a memorandum to the EPA information security           O       Director, Office of Technology 

               community that reiterates the requirements for                          Operations and Planning 

               documenting information systems security control
               testing.

 2       6	    Implement training on the appropriate method for             O       Director, Office of Technology 

               documenting tests of information systems security                       Operations and Planning 

               controls and incorporate this training into the Annual
               Information Security Conference.

 3       6	    Enhance the quality assurance process to verify that:        O       Director, Office of Technology 

               a. required security controls are evaluated annually as                 Operations and Planning 

               part of the FISMA self-assessment,
               b. security control evaluations are independent and
               testing results include a documented strategy to
               resolve all weaknesses,
               c. documentation of security controls testing is
               complete and adequately supports the objectives,
               d. testing plans and procedures address the cause for
               testing failures, and
               e. NIST and EPA requirements for security planning,
               assigning security responsibilities, and maintaining
               C&A documents (agency’s and contractor’s) are being
               followed.

 4       6	    Develop and implement a procedure requiring                  O       Director, Office of Technology 

               Information System Security Officers submit proposed                    Operations and Planning 

               test plans to the Director of TISS, or request a waiver
               with justification for eliminating test(s).

 5       6	    Require the Director of TISS review and approve              O       Director, Office of Technology 

               information systems security controls test plans prior                  Operations and Planning 

               to the Information System Security Officers
               conducting tests.

 6       6	    Develop an inventory of systems that require                 O       Director, Office of Technology 

               contingency plans and maintain the status of updates,                   Operations and Planning 

               test dates, testing results and resolution required.
               Create a POA&M in ASSERT, as needed.

 7       6	    Revise the Network Security Policy to enforce the            O       Director, Office of Technology 

               requirements of NIST Special Publication 800-37,                        Operations and Planning 

               regarding responsibilities, delegation of authority, and
               independence.

 8       6	    Design and implement a training program on                   O       Director, Office of Technology 

               requirements for monitoring contractor oversight                        Operations and Planning 

               based on EPA roles and responsibilities.

 9       6	    Direct the Director, OTOP and the Director, Office of        O          Principal Deputy Assistant

               Information Collection to design and implement a                     Administrator of Environmental 

               process to perform a periodic reconciliation of                       Information and Deputy Chief

               ASSERT and READ.                                                            Information Officer 


O = recommendation is open with agreed-to corrective actions pending
C = recommendation is closed with all agreed-to actions completed
U = recommendation is undecided with resolution efforts in progress



                                                                                7

                                                                                           10-P-0146


                                                                                        Appendix A

                             Scope and Methodology
Williams Adley’s review methodology was based on OIG reporting instructions outlined in
OMB’s Memorandum M-08-21, Fiscal Year 2009 Reporting Instructions for FISMA and Agency
Privacy Management. Williams Adley re-examined the information and updated the OIG report
to address report requirement changes in OMB Memorandum M-09-29 Fiscal Year 2009
Reporting Instructions for Federal Information Security Management Act and Agency Privacy
Management, August 20, 2009, and OMB Memorandum M-07-16, Safeguarding Against and
Responding to the Breach of Personally Identifiable Information, May 22, 2007.

Williams Adley extracted a sample of 19 systems (16 Agency systems and 3 contractor-owned
systems) from ASSERT (as of March 19, 2009) to evaluate the effectiveness of EPA’s policies
and procedures based on OMB’s FISMA fiscal year 2009 reporting instructions. The table
below provides descriptive information of each system evaluated.
Table 1: Systems Reviewed For Fiscal Year 2009 FISMA Audit
                                                                               System         Risk
            System Name                           Program Office                Type        Category
 Office of the Administrator Local   Office of the Administrator              Agency       Moderate
 Area Network
 APBD\CFO LAN Container              Office of Chief Financial Officer        Agency       Moderate
 CINC\OARM                           Office of Administration and Resources   Agency       Moderate
                                     Management
 CIDNET                              Office of Enforcement and Compliance     Agency       Low
                                     Assurance
 Enforcement Action Response         Region 5                                 Agency       Low
 System
 Contract Laboratory Program         Office of Solid Waste and Emergency      Agency       Moderate
 Support Systems                     Response
 Enterprise Content Management       Office of Environmental Information      Agency       Moderate
 System
 Integrated Grants Management        Office of Administration and Resources   Agency       Moderate
 System                              Management
 Inter-Agency Document Online        Office of Chief Financial Officer        Agency       Moderate
 Tracking System
 NAREL LAN                           Office of Air and Radiation              Agency       Moderate
 NERL-Athens                         Office of Research and Development       Agency       Low
 NESC Supercomputing                 Office of Environmental Information      Agency       Low
 OPRM LAN (Shared Services)          Office of Administration and Resources   Agency       Moderate
                                     Management
 OW/OST LAN Container                Office of Water                          Agency       Moderate
 Region 8 Libby                      Region 8                                 Agency       Low
 Video Teleconferencing              Office of Environmental Information      Agency       Low
 Infrastructure
 Enforcement Support Tracking        Region 9                                 Contractor   Moderate
 System
 SRA-Verio                           Office of Environmental Information      Contractor   Moderate
 Working Capital Fund Workload       Office of Environmental Information      Contractor   Moderate
 and Billing
Source: Williams Adley compilation from EPA ASSERT System Data.



                                                    8

                                                                                     10-P-0146


Williams Adley performed the following audit procedures:
•	 Obtained and reviewed the following FISMA required documents for the 19 systems
   (Agency and contractor managed/operated systems):
       o	 certification and accreditation reports.
       o	 security plans and test reports.
       o	 contingency plans and tests.
       o	 risk assessments.

•	 Obtained and reviewed EPA’s:
      o	 POA&M process and system security categorization for compliance with Federal
          Information Processing Standards 199, Standards for Security Categorization of
          Federal Information and Information Systems.
      o	 Privacy Program policies and procedures for compliance with federal laws,
          regulations, and OMB Memorandums M-07-16, M-06-15, and M-06-16 for
          safeguarding privacy-related information and Privacy Impact Assessments.

•	 Assessed system documentation for compliance with:
      o	 OMB Circular No. A-130, Management of Federal Information Resources, Appendix
          III, Security of Federal Automated Information Resources.
      o	 NIST Special Publication 800-34, Contingency Planning Guide for Information
          Technology Systems.
      o	 NIST Special Publication 800-37, Guide for the Security Certification and
          Accreditation of Federal Information Systems.
      o	 NIST Special Publication 800-53A, Guide for Assessing the Security Controls in
          Federal Information Systems.

•	 Reviewed and tested EPA’s:
      o	 Configuration Management processes and procedures.
      o	 Incident Reporting policies and procedures.

•	 Reviewed the Agency’s Information Security Awareness Training Program to include
   training on peer–to-peer file sharing.

•	 Conducted interviews with the Agency’s program officials and senior agency officials.

•	 Conducted internal non-intrusive network vulnerability tests at the following five EPA
   locations:
       o	 Headquarters in Washington, DC.
       o	 Research Triangle Park Finance Center in Durham, North Carolina.
       o	 National Computer Center in Durham, North Carolina.
       o	 Region 8 in Denver, Colorado.
       o	 Great Lakes National Program Office, located at EPA Region 5 in Chicago, Illinois.




                                              9

                                                                                      10-P-0146


                                                                                  Appendix B

          Description of ASSERT and Read Systems
Automated System Security Evaluation and Remediation Tracking System
(ASSERT)

EPA uses ASSERT, an on-line tool, to gather information regarding testing and evaluation of
EPA information assets, track progress of remediation actions, and generate FISMA reports for
EPA management. ASSERT currently contains two integrated modules (security self-
assessments and remediation tracking) and a third semi-standalone module (system
categorization). The ASSERT security assessment module allows Information System Security
Officers to enter information to complete their assessment. The remediation module in ASSERT
allows Information System Security Officers to enter and update POA&Ms to remediate
information technology weaknesses identified.

The system also provides EPA management the ability to monitor activities on-line as updates
occur. The module includes an EPA standardized approach for developing POA&M corrective
action responses to address in a timely manner the weaknesses discovered during any type of
assessment or security review conducted for an Agency information technology asset. ASSERT
is EPA’s system of record for FISMA reporting.

Registry of EPA’s Applications and Databases (READ)

The READ system is a repository for all EPA systems that includes systems reportable to
FISMA and non-reportable systems. READ is considered the authoritative source for all EPA
information systems. Each information resource (application/system, dataset, or model) is to
have a record in READ. The record includes information such as: title, acronym, description,
contact information, and organization that owns or operates the system. READ shows the
governmental statute supported by the system, life cycle information, and access information.




                                              10 

                                                                                    10-P-0146


                                                                                Appendix C

                                    Distribution
Office of the Administrator
Principal Deputy Assistant Administrator for Environmental Information and
       Deputy Chief Information Officer
Director, Office of Technology Operations and Planning, Office of Environmental Information
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Director, Technology and Information Security Staff, Office of
       Environmental Information
Audit Follow-up Coordinator, Office of Environmental Information
Audit Follow-up Coordinator, Office of Technology Operations and Planning,
       Office of Environmental Information
Audit Follow-up Coordinator, Technology and Information Security Staff,
       Office of Environmental Information
Acting Inspector General




                                             11 

